IN THE SUPREME COURT OF THE UNITED STATES
___________
No. 19-7
___________
SEILA LAW LLC, PETITIONER
v.
CONSUMER FINANCIAL PROTECTION BUREAU
___________
MOTION FOR LEAVE TO DISPENSE
WITH THE REQUIREMENT OF A JOINT APPENDIX
___________
Pursuant to Rule 26.8 of this Court, petitioner respectfully
seeks leave to dispense with the requirement of a joint appendix
in this case.

Counsel for the United States and the court-ap-

pointed amicus curiae have authorized undersigned counsel to state
that they concur in this motion.
The questions presented in this case are (1) whether the
vesting of substantial executive authority in the Consumer Financial Protection Bureau, an independent agency led by a single
director, violates the separation of powers; and (2) if the Consumer Financial Protection Bureau is found unconstitutional on the
basis of the separation of powers, whether 12 U.S.C. 5491(c)(3)
can be severed from the Dodd-Frank Act.

The appendix to the

petition for a writ of certiorari includes all of the lower court
opinions.

The parties do not believe that any other portion of

the record merits special attention that warrants the preparation
and expense of a joint appendix.

Accordingly, a separate joint

appendix would not materially assist in the Court’s consideration

2

of this case.

For the foregoing reasons, the motion to dispense

with the requirement of a joint appendix should be granted.
Respectfully submitted.
KANNON K. SHANMUGAM
Counsel of Record
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
November 14, 2019

